June 26, 2009

LINDA J. WELCH
ACTING VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

VICE PRESIDENT AREA OPERATIONS

DISTRICT MANAGERS

SUBJECT: Audit Report – Postal Service 2009 National Rural Mail Count – Nationwide
         Review (Report Number DR-AR-09-006)

This report presents the results of our nationwide audit of the U.S. Postal Service 2009
National Rural Mail Count (Project Number 09XG014DR000). The overall objective was
to determine whether the Postal Service followed the National Rural Mail Count
procedures and processes. This audit was conducted based on a request from the
Postal Service.1 See Appendix A for additional information about this audit.

Conclusion

The Postal Service generally followed the National Rural Mail Count procedures and
processes during the 2009 mail count, which resulted in an average standard hourly
reduction of approximately 4 percent nationwide. Our observations confirmed all
classes of mail were counted and results documented.

However, the Postal Service could further improve the National Rural Mail Count by
counting all routes and properly classifying Digital Video Disc (DVD) mailpieces. See
Appendix B for details.

2009 National Rural Mail Count

Postal Service generally followed the National Rural Mail Count procedures and
processes at the site locations visited. Specifically, we found Postal Service:

•   Completed the majority of Option-In Election Forms2 with management signatures.


1
  On January 6, 2009, the Postmaster General requested the U.S. Postal Service Office of Inspector General (OIG) to
conduct an audit of the Postal Service 2009 National Rural Mail Count. Officials were concerned as to whether
established procedures were being followed. Because of the unprecedented and continuing decline in mail volume,
the Postal Service decided that all rural routes would be counted for 2009.
2
  The Option-In Election Form document was used by the Postal Service during the 2009 National Rural Mail Count
as the official notification to rural carriers that their routes would be counted.
Postal Service 2009 National Rural Mail Count –                              DR-AR-09-006
 Nationwide Review


•   Explained the mail count procedures and processes to the rural carriers in the form
    of a Pre-count Conference, in conjunction with the regular service and or safety
    talks.

•   Assigned mail count staff resources that counted all classes of mail.

•   Documented the results on Postal Service (PS) Form 4239, Rural Route Count of
    Mail, for the rural carrier’s review.

Although management generally followed the procedures and processes, 183 rural
routes were not counted and Netflix DVDs were not always properly classified due to
inadequate management oversight and information communicated incorrectly regarding
the type of mailpiece. As a result of not counting these routes and based on historical
cost data, the Postal Service will incur unrecoverable unsupported questioned costs of
approximately $598,593, including $263,381 for the remainder of fiscal year (FY) 2009
and $335,212 for FY 2010.

We will report this monetary impact of $598,593 in our Semiannual Report to Congress;
see Appendix D, and Table 2. Further, incorrect classification of Netflix DVDs that
occurred on some routes could potentially allow rural carriers to obtain more
compensation for these mailpieces. Management immediately took action to resolve
these issues and provided official comments based on the exit conference meeting and
discussion draft report. Therefore, we are making no recommendations. See Appendix
B for our detailed analysis.

Management’s Comments

Management agreed with the findings and monetary impact. Management stated the
Postal Service recognizes the need to further improve the National Rural Mail Count
process by increasing communication on required documentation completion and
improving count procedures. Management agreed the next National Rural Mail Count
Process will include a review of online training documentation and highlight problems
such as the Netflix DVD issue. Management plans to work with Labor Relations to
revise their Option-In process. They also agreed with the monetary impact. See
Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive and
corrective actions should resolve the issues identified in the report.




                                                  2
Postal Service 2009 National Rural Mail Count –                                DR-AR-09-006
 Nationwide Review



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, Director, Delivery,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:   John E. Potter
      Patrick R. Donahoe
      William P. Galligan
      Jordan M. Small
      James W. Kiser
      James J. Boldt
      Robert S. West
      John Scinto
      Cathy M. Perron
      Katherine S. Banks




                                                  3
Postal Service 2009 National Rural Mail Count –                                                        DR-AR-09-006
 Nationwide Review


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Rural letter carriers perform a vital function in the Postal Service serving thousands of
families and businesses in rural and suburban areas while traveling millions of miles
daily in accordance with the national labor agreement.3 The 2009 national mail count
period was conducted for 24 working days, from February 14 through March 14, 2009,
nationwide, to provide a basis for individual route evaluations and rural carriers
compensation. Rural letter carriers are compensated for their routes based on workload
evaluations.4 During the mail count, officials identify the number and type of pieces of
mail delivered, collected, or handled on rural routes. Because of the unprecedented
and continuing decline in mail volume,5 Postal Service officials decided that all rural
routes would be counted in the 2009 National Rural Mail Count. As illustrated in
Appendix C, Table 1, the Postal Service had 76,540 rural routes nationwide as of
January 2009. The routes are located in 15,991 Postal Service post offices, stations,
and branches.

Months before the 2009 National Rural Mail Count, in July 2008, the Vice President,
Delivery, made revisions to the Handbook PO-603, Rural Carrier Duties and
Responsibilities. The revision included requirements for Postmasters to hold joint
conferences with supervisors and rural carriers to discuss mail count procedures at
least 15 days before the start of the mail count. Also, several weeks before the official
mail count started, the Vice President of Delivery Operations, issued a Memorandum on
December 4, 2008, directing district management to:

    •    Complete the Option-In Election Forms with a signature and a round date
         postmark, no later than January 23, 2009.

    •    Provide a copy of the form to the rural carriers notifying them that their routes
         would be counted.

Further, the Postmaster or designee is required to complete daily PS Form 4239, for
each route, and use this form to record each day’s mail count for each route and
exercise caution to ensure all entries on the form are correct.6 The form was designed
to function as a combination worksheet and mail count record, providing evaluation

3
  Article 9.2.C.3.a (2) of the 2006-2010 National Agreement between the Postal Service and the National Rural Letter
Carrier’s Association.
4
  Rural Routes are classified as follows: H Routes - carrier works 6 days a week; J Routes - carrier has a relief day
every other week; K Routes - carrier has a relief day every week; Auxiliary Routes - carriers works 6 days a week,
normally evaluated at less than 39 hours per week; Mileage Routes - carrier salary is based on the length of the route
as determined by the official measurement; and High Density L Routes – carrier has a density of 12 boxes or more
per mile, as verified by a mail count.
5
  Postal Headquarter officials stated that they are expecting between 6.78 and 10.10-percent decline in mail volume
for FY 2009.
6
  During the official count period, all classes of mail handled by each rural carrier must be counted daily before the
mail is cased.




                                                          4
Postal Service 2009 National Rural Mail Count –                                 DR-AR-09-006
 Nationwide Review


information on mail volume and time data to authorize rural letter carrier’s
compensation.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective was to determine whether the Postal Service followed the National Rural
Mail Count procedures and processes during the period February 14 to March 14, 2009.

To accomplish our objective, we:

•   Reviewed applicable documentation, policies, and procedures.

•   Attended established Postal Service Rural Mail Count training in the Atlanta, Dallas,
    and Capital Districts during January and February 2009.

•   Judgmentally selected 19 postal district locations, 168 unit locations, and observed
    905 rural routes. See Appendix C.

•   Reviewed a judgmental sample of completed PS Forms 4239 for the 905 rural
    routes to verify accuracy of the final mail count results entered into the Rural Route
    Management Count (RRMC) system.

We conducted this review from February through June 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. We discussed our observations
and conclusions with management officials on June 1, 2009, and included their
comments where appropriate. We relied on data obtained from Postal Service
database systems. We did not directly audit the systems but performed a limited data
integrity review to support our data reliance.

PRIOR AUDIT COVERAGE

The OIG has issued one report related to our objective.

Delivery and Retail Standard Operating Procedures National Capping, DR-MA-07-003,
February 22, 2007. The 2007 report summarized a series of area reports identifying
opportunities to improve implementation of the Postal Service’s Delivery and Retail
Standard Operating Procedures. We did not make recommendations in this report that
required management’s comments.




                                                  5
Postal Service 2009 National Rural Mail Count –                                                          DR-AR-09-006
 Nationwide Review


                                   APPENDIX B: DETAILED ANALYSIS

2009 National Rural Mail Count

Postal Service officials generally followed the rural mail count procedures and
processes at the site locations visited. Management is required to complete the Option-
In Election Forms for all regular rural routes and notify the rural carriers of the mail
count. They are also required to conduct joint conferences with supervisors and rural
carriers to discuss mail count procedures at least 15 days before the start of the mail
count and record each day’s mail count for each route.

Specifically, we found:

•   Area and district officials completed the majority of Option-In Rural Route Count
    forms with management signatures by the required date.

•   Postal Service Headquarters officials conducted pre-planning and interim meetings
    with area officials via conference calls on implementation of established policies and
    procedures, and utilization of the newly designed RRMC system.

•   Area and district officials explained the mail count election procedures to the rural
    carriers in the form of a Pre-count Conference in conjunction with the regular service
    and or safety talks. Our review at the selected locations indicated that officials did
    discuss the 2009 National Rural Mail Count procedure at least 15 days before the
    start of the mail count.

•   Area and district officials assigned mail count staff resources to count all classes of
    mail. Our observations at the 168 selected unit locations indicated that assigned
    mail counters received training on mail count procedures. In addition, during the
    morning mail counts, mail counters’ areas were properly staged7 and all classes of
    mail were pulled from the casing areas for count before being cased.

•   Further, the assigned mail counters documented the counted results correctly on the
    preprinted PS Form 4239, for the rural carrier’s review.

Completion of Mail Counts

Although management generally followed the procedures and processes, 183 rural
routes were not counted in 14 district locations.8 This occurred because some district

7
  Assigned mail counters had their areas staged with the required PS Forms 4239, measuring rulers, and stop
watches.
8
  According to Postal Service Headquarters, there were 159 routes that were either consolidated before the count or
not classified as delivery routes and were not included in the rural mail count. Additionally, there were 183 routes not
counted due to documentation issues. The 183 routes represent less than 1 percent of the universe of 76,540 rural
routes.




                                                           6
Postal Service 2009 National Rural Mail Count –                                DR-AR-09-006
 Nationwide Review


officials did not properly complete the Option-In election forms with a signature and a
round date postmark, by January 23, 2009, with a copy provided to the rural carrier.
District officials stated that the form completion errors and delays in timely submission
of forms to the rural carriers occurred because of inadequate management oversight
and misunderstandings that form copies had to be presented to the rural carriers.

During the audit, we informed Postal Service Headquarters and area officials of our
finding, and monetary impact in the 14 district locations that did not complete mail
counts. OIG discussed with management the need to prioritize the tasks associated
with any future national rural mail counts in their delivery units and develop an oversight
action plan to include effective communication that will ensure proper completion of the
required forms to mitigate future occurrences of not counting all routes. We estimate
that the Postal Service will incur unrecoverable unsupported questioned costs of
$598,593, approximately $263,381 for the remainder of FY 2009 and $335,212 for
FY 2010 for not counting the 183 routes in FY 2009. See Appendix D, Table 2.

Postal Service Headquarters officials agreed with our findings and monetary impact in
May 2009. Management stated their current memorandum of understanding with rural
letter carrier union officials included formation of a Mail Count Task Force to assist in
selecting fair and accurate national mail count periods. Officials further stated that the
team’s review will consider mail count streamlining options to further facilitate effective
communication during future national mail counts. In addition, area officials for the
14 district locations took immediate corrective action during the audit; to include
disciplinary actions and re-emphasizing tasks associated with national rural mail counts.
Official’s corrective actions implemented during the audit should resolve the issues
identified; therefore, we are making no recommendations regarding these issues.

Mail Count of Netflix Digital Video Discs

Postal Service Headquarters officials conducted preplanning meetings and training on
the rural mail count procedures; however, at our selected site observations, we
identified some mail counters inconsistently recording Netflix DVDs as either flats or
parcels instead of letters. This occurred because several district officials incorrectly
communicated instructions due to their misunderstanding of the mail count guidelines
for counting Netflix DVDs. Incorrect classification of mail could potentially allow rural
carriers on some routes to obtain more compensation for mailpieces than warranted.

During the audit, we informed Postal Service Headquarters officials of our finding and
discussed the need for immediate notification via discussion and or e-mail
correspondence re-emphasizing the established mail count procedures. Postal Service
Headquarters officials agreed with our finding and took immediate corrective action.
Headquarters officials sent a nationwide notification to management in rural postal units
to ensure that counters classify Netflix DVDs as letters for the remainder of the mail
count. The corrective actions implemented during the audit should resolve the issues
identified, therefore, we are making no recommendations regarding this issue.




                                                  7
Postal Service 2009 National Rural Mail Count –                                                                         DR-AR-09-006
 Nationwide Review



                  APPENDIX C: NATIONWIDE RURAL ROUTE SUMMARY AND
                            OBSERVATION SITE SELECTIONS

       Table 1. Nationwide Rural Route Summary for Fiscal Year 2009 and OIG Observation Site Selections
                                               Total
                                             Number                               Units with 6 or     Total      Number of
                                             of Units               Number of      More Rural        Routes       Routes        Number of
                            Total Number     with 6 or               Districts        Routes           for      Available for    Routes
                 Total     of Units with 5     More      Total     Judgmentally   Judgmentally      Selected        OIG         Observed
       Area     Routes     or Less Routes     Routes     Units       Selected        Selected       Districts   Observation      by OIG
SE                14,675             1,382         476     2,105              5                40      10,781             877         252
WE                13,259             3,064         523     3,587              3                28       4,410             656         156
GL                10,100             1,951         490     2,441              2                16       3,167             300          73
EA                 9,917             1,809         225     2,332              1                 8       1,666             120          41
SW                 9,704             1,440          87     1,885              3                28       4,562             693         104
CM                 9,065               857         153     1,333              2                20       4,025             354         124
NE                 5,421             1,357         723     1,582              1                 8       1,113             109          51
PA                 3,010               279         523       432              1                 8       1,188             110          55
NY                 1,389               207         445       294              1                12         505             226          49

Grand Total       76,540            12,346       3,645    15,991             19               168      31,417           3,445         905



Source: Postal Service Headquarter Officials


•      Judgmentally selected 19 Postal Service district locations based on our analysis of
       the largest number of rural routes as of FY 2008, which included 31,417 rural routes.

•      Within the 19 district locations, we judgmentally selected 168 unit locations based on
       analysis of Postal Service units with six or more rural routes, geographic locations,
       available resources, utilization of contractors and prior FY 2008 mail count failures.
       For the unit locations with less than five rural routes, we analyzed the rural route
       data from the FY 2006 and FY 2008 national mail counts to determine whether there
       were significant increases in rural workhours in relation to the mail volume count
       results. Overall, our review of this information noted no significant increases.

•      We made site visits to the 168 unit locations and observed the morning physical mail
       count for 905 rural routes to determine whether the mail count procedures and
       processes were being followed.9




9
    The majority of the rural mail is counted during the morning before it is cased by the rural carriers.




                                                                   8
Postal Service 2009 National Rural Mail Count –                                                           DR-AR-09-006
 Nationwide Review


                           APPENDIX D: CALCULATION OF
                   UNRECOVERABLE UNSUPPORTED QUESTIONED COST10

The OIG identified $598,593 in unrecoverable questioned costs for the 183 rural routes
not counted in 14 District locations during the 2009 National Rural Mail Count. Our
calculations were based on the following methodology and assumptions.

For the 2009 National Rural Mail Count, Postal Service Headquarters officials stated
that 183 routes were not counted during the FY 2009 count, less than 1 percent of the
total universe of 76,540 routes. Based on the historical cost11 information, we multiplied
$3,271 by the 183 routes in the 14 district locations. As a result, the Postal Service will
incur unrecoverable unsupported questioned cost of approximately $598,593 as
indicated in Table 2, including $263,381 for the remainder of FY 2009 and $335,212 for
FY 2010.

      Table 2. Summary of Audit Results - Administrative Procedures- Option-In Election Form Failures



                                            Total
                                           Routes                                                             Carrier Not
                                             Not            Total                   Carrier Not Carrier Not   Provided a
                                          Counted      Unrecoverable    Carrier Not Presented a Presented     Copy of the
                                           Due to      Unsupported      Presented Completed the Option        Completed
                                          Option In     Questioned      an Option    Option In   In Form       Option In
       Area                District       Failures         Costs         In Form       Form       Timely        Form
Capital Metro      Greater South Carolina         29   $      94,859         9                       9
                   Mid Carolinas                   3   $        9,813        9

Great Lakes        Central Illinois               9    $      29,439                                              9
                   Greater Indiana               34    $     111,214                    9                         9
                   Northern Illinois             40    $     130,840        9                                     9
                   SE Michigan                   28    $      91,588        9

New York Metro     Central NJ                     5 $         16,355        9                                     9
                                                    $            -
Northeast          Connecticut                    2 $          6,542        9
                   Maine                          1 $          3,271        9
                   Massachusetts                  9 $         29,439        9
                   Western New York               2 $          6,542        9

Pacific            Sacramento                     6 $         19,626                                              9
                   San Francisco                  4 $         13,084        9                                     9

Western            Northland                     11 $         35,981        9           9                         9
                                                    $            -
Nationwide Total                                183 $        598,593


Source: Postal Service Headquarters Officials


10
  Additional details on our methodology and assumptions can be made available upon request.
11
  For the 2008 National Rural Mail Count, 1,070 routes were not counted, resulting in an estimated cost to the Postal
Service of $3.5 million, approximately $3,271 per route.




                                                              9
Postal Service 2009 National Rural Mail Count –             DR-AR-09-006
 Nationwide Review


                        APPENDIX E: MANAGEMENT’S COMMENTS




                                                  10
Postal Service 2009 National Rural Mail Count –        DR-AR-09-006
 Nationwide Review




                                                  11
